OFFICE OF INSPECTOR GENERAL



Audit of the Inter-American
Foundation’s Financial
Statements for Fiscal Years 2006
and 2005
AUDIT REPORT NO. 0-IAF-07-003-C
November 15, 2006




WASHINGTON, DC

Office of Inspector General

November 15, 2006

MEMORANDUM

TO:                IAF President and CEO, Amb. Larry L. Palmer

FROM:              AIG/A, Joseph Farinella /s/

SUBJECT:           Report on Audit of the Inter-American Foundation's Financial
                   Statements for Fiscal Years 2006 and 2005 (0-IAF-07-003)

Enclosed is the final report on the subject audit. We contracted with the independent
certified public accounting firm of Gardiner, Kamya & Associates, P.C. (GKA) to audit the
financial statements of the Inter-American Foundation as of September 30, 2006 and
2005 and for the years then ended. The contract required that the audit be performed in
accordance with generally accepted government auditing standards; generally accepted
auditing standards; Office of Management and Budget (OMB) Bulletin 06-03, Audit
Requirements for Federal Financial Statements; and the Government Accountability
Office/President's Council on Integrity and Efficiency Financial Audit Manual.

In its audit of the Inter-American Foundation (IAF), Gardiner, Kamya & Associates found;

•	 the financial statements were fairly presented, in all material respects, in conformity
   with U.S. generally accepted accounting principles,

•	 IAF had effective internal control over financial reporting (including safeguarding
   assets) and compliance with laws and regulations,

•	 IAF's financial management systems substantially complied with the requirements of
   the Federal Financial Management Improvement Act of 1996 (FFMIA), and

•	 no reportable noncompliance with laws and regulations it tested.

In connection with the audit contract, we reviewed GKA's report and related
documentation. Our review, as differentiated from an audit in accordance with U.S.
generally accepted government auditing standards, was not intended to enable us to
express, and we do not express, opinions on IAF's financial statements or internal
control or on whether IAF's financial management systems substantially complied with
FFMIA; or conclusions on compliance with the laws and regulations. GKA is responsible
for the attached auditor's report dated October 27, 2006 and the conclusions expressed
in it. However, our review disclosed no instances where GKA did not comply, in all
material respects, with applicable standards.
U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
The report does not contain recommendations and IAF has elected to not formally
comment on the report.

The OIG appreciates the cooperation and courtesies extended to our staff and to the
staff of GKA during the audit. If you have questions concerning this report, please
contact Andrew Katsaros at (202) 712-4902.
                                                    TABLE OF CONTENTS 


MESSAGE FROM THE PRESIDENT ..................................................................................................... 1 


MANAGEMENT DISCUSSION AND ANALYSIS (OVERVIEW)................................................................ 4 


INDEPENDENT AUDITORS’ REPORT ON FINANCIAL STATEMENTS ................................................... 20 


BALANCE SHEETS........................................................................................................................... 22 


STATEMENTS OF NET COST ............................................................................................................ 23 


STATEMENTS OF CHANGES IN NET POSITION ................................................................................. 24 


STATEMENTS OF BUDGETARY RESOURCES..................................................................................... 25 


STATEMENTS OF FINANCING .......................................................................................................... 26 


NOTES TO FINANCIAL STATEMENTS ............................................................................................... 27 


INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL .......................................................... 41 


INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE WITH LAWS AND REGULATIONS ................... 43 

Inter-American Foundation
Message from the President

The Inter-American Foundation (IAF), an independent foreign assistance agency of the United
States government, provides grants to grassroots organizations in Latin America and the
Caribbean. Created in 1969 as an experimental program, the IAF responds to innovative,
participatory and sustainable self-help development projects proposed by grassroots groups and
organizations that support them. It also encourages partnerships among community
organizations, businesses and local governments directed at improving the quality of life for
poor people and strengthening democratic practices. To contribute to a better understanding of
the development process, the IAF shares its experiences and the lessons it has learned.

The Inter-American Foundation is governed by a nine-person board of directors appointed by
the President of the United States and confirmed by the U.S. Senate. Six members are drawn
from the private sector and three from the federal government. The board is assisted by an
advisory council. A president, appointed by the board, serves as the Inter-American
Foundation’s chief executive officer, managing a staff of 47 employees based in Arlington,
Virginia. The IAF is organized into four offices; Executive, which houses the Office of the
President, General Counsel and Corporate Programs; External Affairs; Operations, which
houses Evaluation, Financial Management, General Services, Human Resources and
Information Management; and the Program Office.

The IAF’s role in the advancement of United States foreign policy is highly relevant in the current
context. Over the past 35 years, it has delivered U.S. government assistance directly to the people of
Latin America and the Caribbean by funding the initiatives of the organized poor and the groups
that support them. Once considered experimental, the IAF’s methodology—cornered on
responsiveness to the ideas emerging from the grassroots and on participation by ordinary people in
efforts toward positive change—has become widely recognized for its effectiveness. Particularly as
recent development literature surveys the foreign assistance panorama, the IAF’s approach is
increasingly recommended as the best way to bring economic development and better living
conditions to marginalized communities.

In addition to contributing to long-term U.S. interests in good hemispheric relations, its first
Congressional mandate, the IAF, flexible by design, responds to unanticipated foreign policy
priorities, such as those arising in fiscal 2006: Following natural disasters in Mexico and Central
America, the IAF designated or reprogrammed $875,000 for rescue and recovery. When President
Bush announced the urgency to counter youth violence, the IAF responded with more funding for
organizations offering alternatives for young people at risk, including gang members. IAF resources
were allocated to support Summit of the Americas directives for the inclusion of African
descendants and persons with disabilities in their countries’ economic and political life and social
processes, and toward developing Opportunity Zones, a Summit mandate that grew out of an IAF
initiative.
The centerpiece of the IAF’s strategy is its grant program, which is bolstered by an evaluation
system that holds grantees accountable. In fiscal 2006, the IAF funded 108 new and
supplemental grants, many of them to benefit historically excluded groups. As IAF’s
monitoring confirmed, grantees active during the fiscal year improved the quality of life for
thousands of individuals. The IAF shares what it learns about grassroots development from
these project experiences through scheduled publications and in a variety of national and
international conferences.

In fiscal 2006, the IAF’s investment yielded a significant return in resources for grassroots
development: IAF corporate foundation partners mobilized more than $5.95 million for their
respective self-help programs. Under the terms of their fiscal 2006 grants and amendments,
grantee organizations have committed to contributing counterpart in kind and in cash valued
at $22.3 million. In addition to their counterpart, IAF grantees raised another $4.7 million to
further their efforts.

The Inter-American Foundation’s Strategic Plan for fiscal 2008 through fiscal 2013 flows
from the lessons of its experience. The Strategic Plan also reflects the IAF’s vision for a
steady increase in international support for grassroots development. The IAF’s fiscal 2008
goals are identical to the longer-term goals in the Strategic Plan and incorporate goals and
performance measures developed with the Program Assessment Rating Tool, which helped
sharpen the IAF’s focus on its development mission.

The IAF streamlines operations, lowers costs and ensures compliance with OMB reporting
requirements by outsourcing its procurement, accounting, budget and information technology
functions to the Bureau of the Public Debt (BPD). Under an inter-agency agreement, BPD’s
Office of Information Technology in Parkersburg, West Virginia, maintains a remote data
center for IAF contingencies and continuity of operations. In May, the IAF successfully
completed annual contingency testing of remote access to alternate file, e-mail and grant
database servers at BPD’s data center through the use of a Virtual Private Network (VPN)
configured on laptops assigned to essential employees.

As mandated by the Federal Information Security Management Act (FISMA), the IAF
completed fiscal 2006 self-assessments of management, operational, and technical security
controls for the Enterprise Network System and Grant Evaluation and Management System
(GEMS) based on IAF policy; OMB Circular A-130, Appendix III; NIST Special
Publications 800-53A (Guide for Assessing the Security Controls in Federal Information
Systems) and 800-26 (Guide for Information Security Program Assessments); and FIPS
Publication 200 (Minimum Security Requirements for Federal Information and Information
Systems). Pursuant to its annual audit, USAID’s Inspector General reported the IAF’s
information security program in full compliance with FISMA.

The IAF is among the agencies supporting E-Gov. BPD has implemented the integration with
the Central Contractor Registration, the system used by suppliers as the sole repository for
pertinent data, including remittance information. Integration allows BPD and the IAF to
maintain more efficiently current data related to suppliers. The IAF is supporting OMB’s
Financial Management Line of Business (FMLOB) Initiative by using BPD’s Oracle Federal



                                                                                             2
Financials System and related accounting and procurement services. The Oracle platform
provides real-time, user-friendly financial reports. Since fiscal 2005, the IAF has been using
GovTrip, the government-wide E-Gov Travel system, integrating online booking with the
automated authorization and vouchering process allowing travelers to attach receipts
electronically. The IAF continues to receive unqualified audits of its financial statements,
internal controls over financial reporting, and its compliance with laws and regulations.

I am pleased to introduce the IAF’s Fiscal 2006 financial statements, which reflect the IAF’s
quest to become increasingly innovative and independent while adhering to its core principles.

The financial statements and performance results data are complete, reliable and in
accordance with the Office of Management and Budget (OMB) requirements and in
conformity with generally accepted accounting principles. The IAF has appropriate
management controls in place to ensure that all internal controls are operating in accordance
with applicable policies and procedures and are effective in meeting the requirements
imposed by Federal Managers’ Financial Integrity Act (FMFIA) and the Federal Financial
Management Improvement Act (FFMIA).

Signed:




for Amb. Larry L. Palmer
President




                                                                                            3
                   MANAGEMENT DISCUSSION AND ANALYSIS 


The Inter-American Foundation (IAF) is a resourceful, agile, cost-effective agency efficient in
its operations, innovative and effective in its grassroots development programs. The IAF
learns from its experience, and uses the lessons learned to improve its own grant making
decisions and to advance the knowledge and success of development practitioners, donors,
and policy makers.

Mission and Organizational Requirements

The Inter-American Foundation funds self-help and participatory development efforts in ways
that support democracy and strengthen the bonds of friendship and understanding in the
Western Hemisphere. The IAF supports initiatives proposed by the organized poor in Latin
America and the Caribbean to improve their quality of life. IAF staff, representing the
American government and people, maintain a supportive relationship with the grantees and
their beneficiaries during the course of projects and, frequently, beyond. The IAF’s
experiences are documented and shared with a broad and diverse audience.

The IAF vision for the next six years is a steady expansion of support for grassroots
development and greater participation by the people of Latin America and the Caribbean in
their countries’ economic development, social processes and political life. The IAF will
continue to respond to the best ideas from the region, empowering people by strengthening a
vast infrastructure of community groups and nongovernmental organizations that has become
a highly effective and transparent channel for productive foreign assistance. Because a
broader resource base is crucial to an expanded IAF program, the IAF will seek enhanced
Congressional appropriations and look for other ways of attracting resources. The IAF will
build on its well-documented record of drawing local government, businesses, corporate
foundations and transnational communities into grassroots development. Through
disseminating the lessons of its investment to other donors, to policymakers and to American
taxpayers, the IAF can continue to lead the development community toward a realization that
bottom-up development, in which the organized poor play a leading role, is more effective
than traditional top-down approaches.

The Fiscal 2006 Accomplishments

In fiscal 2006, the Inter-American Foundation received an appropriation of $19.3 million for
program and program support activities, which was supplemented by $5.6 million from the
Social Progress Trust Fund for grants and $386,000 in carry-over funds. The total budget was
$25.3 million. The IAF remained responsive to the best ideas for engaging poor communities
in development.

The IAF funds grassroots development in Latin America and the Caribbean by responding to
the proposals it receives and carefully selecting the best from its very large pool. In-depth
evaluations of selected projects complement normal reporting; the information is made
available to staff and to the development and academic communities.




                                                                                             4
Grants Funded in Fiscal 2006

In Fiscal 2006, the IAF funded 54 new grants in the amount of $10,381,000 and amended 54
ongoing projects in the amount of $3,772,000, totaling more than $14,153,000 in grant
funding, representing 100 percent of all grant funds for fiscal 2006. These funding actions are
divided among primary program areas as follows:

                      Primary Program Areas        Funding Actions     Amount
                Food Production/Agriculture              26          $ 3,346,951
                Business Development/Management          30            3,893,394
                Education/Training                       29            3,211,790
                Research/Dissemination                   2               79,000
                Community Services                       4              767,533
                Legal Assistance                         2              316,300
                Cultural Expression                      5              727,946
                Ecodevelopment                           6             1,194,989
                Corporate Social Investment              4              615,000
                Fiscal 2006 Total IAF Funding           108          $14,152,903


Descriptions of the fiscal 2006 funding actions are available upon request. Detailed below are
the IAF’s accomplishments of its objectives for fiscal 2006. For ease of reference the
objectives are listed under the relevant goal from the original Strategic Plan submitted, and
the accomplishments follow the corresponding objective.

Accomplishment of the Goals and Objectives of the Fiscal 2006 Program

The Inter-American Foundation achieved its goals as follows:

                                 Strategic Plan Goal I: 

Support the most promising and innovative means to foster sustainable grassroots and local 

                       development and economic independence.



Performance Goal I.1: Fully implement a more expedited system for responding to
proposals and processing grants that remains competitive and transparent and continues to
take advantage of internal expertise.

Performance Measure I.1.1: Significantly reduce the time between receipt of proposals and
obligation of funds.

The time between receipt of proposals and funding decreased from 15 months to 11 months,
in part due to the elimination of the annual proposal deadline in favor of a rolling cycle. The
IAF expects to further shorten the processing period in fiscal 2007 through new grant
management software and a revised call for proposals.



                                                                                             5
Performance Goal I.2: Continue to promote participatory development as the fundamental
building block of democratic governance.

Performance Measure I.2.1: Identify and support innovative development projects that
engage their beneficiaries in their design and execution and generate broadly applicable
lessons.

The IAF funded 55 new development projects, using criteria that included innovation,
beneficiary participation and the potential for lessons. A complete listing of new grants and
amendments is available upon request.

The IAF is engaged in the following initiatives arising out of mandates from the Summit of
the Americas (SOA):

   •	 Opportunity Zones: President George W. Bush included in his Summit presentation
      the IAF’s proposal to introduce Opportunity Zones in Latin America. Opportunity
      Zones are self-defined development areas that encourage economic growth through
      tax incentives as well as training and technical assistance. When John Maisto, U.S.
      Ambassador to the OAS, discussed the SOA strategies at the June Latin American
      Conference of Mayors in Miami, he focused on Opportunity Zones. The U.S.
      Department of Housing and Urban Development provided guidance and materials on
      U.S. zones (currently “Renewal Communities”) and assistance with visits by
      delegations representing the Guatemalan and Nicaraguan governments sponsored by
      the IAF. The IAF has met with Honduran officials and expects to introduce the
      concept in Ecuador and Argentina. Three more delegations are anticipated in fiscal
      2007.
   •	 Improvement of the conditions of African Descendants: The IAF sponsored the
      participation of eight African descendent civil society leaders at the SOA; of three at
      the May 2006 Civil Society Forum held at the OAS; and of 20 at the June 2-3 seminar
      “Expanding the Participation of Afro-Descendants at the OAS” in Santo Domingo
      prior to the OAS General Assembly (where these individuals later engaged in a formal
      dialogue with member states representatives). With IAF support, Partners of the
      Americas facilitated an eight-week virtual forum on the SOA process for African
      descendants.
   •	 More opportunities for persons with disabilities: In collaboration with the Inter-
      American Institute for Disabilities, Handicapped International and the World Bank,
      the IAF funded 30 travel grants enabling the participation of Latin American disability
      activists at the seventh and eight meetings of United Nations Ad Hoc Committee on a
      Comprehensive and Integral Convention on the Protection and Promotion of Rights
      and Dignity of Persons with Disabilities. Support for projects benefiting persons with
      disabilities increased from one percent of IAF’s 2003 funds to 5 percent of 2004 funds
      to 7 percent of 2005 funds. IAF grants benefiting persons with disabilities were
      awarded in Peru, El Salvador and the Dominican Republic.




                                                                                           6
The IAF briefed the Department of State’s Western Hemisphere Affairs’ Policy Planning staff
on the IAF’s philosophy, programs, approaches and contributions to U.S. foreign policy.

Performance Measure I.2.3: Promote training in local development, governance and
capacity-building activities through direct sponsorship and through partnering with other
sponsors.

The IAF funded 55 scholarships for grantee representatives and other Latin Americans to
participate in the International Labour Organization’s Delnet Program (Delnet) providing
training in local development and networking opportunities online and on-site.

The Inter-American Democracy Network (IADN) inaugurated in Cartegena, Colombia, its
methodology for training communities in constructive interaction and public debate. Eight
conflict resolution workshops were conducted in Peru, Ecuador, Panama and Argentina.

The IAF, in collaboration with Miami-Dade County and Florida International University,
sponsored the XII Inter-American Conference of Mayors and Local Authorities where more
than 500 representatives of government, NGOs, international organizations, donors and others
participated in workshops on community problem-solving and the application of technology,
and discussed their experience and common goals in the promotion of democratic local
governance.

Performance Measure I.2.4: Promote understanding of grassroots development by 1)
extracting learning from projects funded; 2) evaluating selected projects in depth; 3)
supporting research on specific topics; 4) publishing these experiences; and 5) sponsoring and
participating in events to disseminate learning.

In fiscal 2006, 10 closed projects were randomly selected from a pool of 54 for in-depth
analysis and evaluation. IAF staff discussed findings from the fiscal 2005 evaluations and
their applicability to the grant-making process.

At the Miami Mayors’ Conference, an IAF panel discussed community-based recycling and
solid waste management initiatives that have enabled marginalized groups to improve their
standard of living and address political and social challenges.

IAF planned the reactivation of the doctoral research component of IAF’s Fellowship
Program for fiscal 2007 with the goal of building the community of scholars specialized in
grassroots development.

Performance Goal I.3: Identify opportunities for development among people of African
descent, who comprise half the population living below the poverty line in Latin America and
the Caribbean.

Performance Measure I.3.1:          Fund development projects proposed by grassroots
organizations representing African descendants.




                                                                                            7
The IAF funded 13 grants, totaling $2.7 million, benefiting more than 29,000 African
descendants in Brazil, Colombia, Dominican Republic, Ecuador, Haiti, Mexico, Paraguay and
Panama.
Performance Measure I.3.2: Promote the inclusion of grassroots organizations serving
African descendants in international development agendas.

The IAF supported events with a variety of donors aimed at increasing awareness of issues
affecting African descendent communities and at strengthening their organizations:

The IAF sponsored two seminars in Washington, D.C., with the National Council of La Raza
(NCLR) and the Inter-Agency Consultation on Race: Andean Voices, African Roots: A
Discussion on Blackness, Community, and Culture and African Beat, Caribbean Echoes:
Blackness in the Formation of Dominican Identity. More than 100 community leaders,
graduate students and others at the NCLR’s annual conference attended an IAF sponsored
workshop, Afro-Latina Women Speak Up: A Discussion on Gender, Ethnicity and
Community, where panelists spoke on community engagement, grassroots development and a
stronger role for Afro-Latinas.

The IAF funded the participation of African descendent leaders at events in preparation for
the Regional Race Conference: Santiago + 5, hosted by the Brazilian government, which
followed-up on the 2001 World Conference on Racism in Durban:

       •	 The Conference to Establish a Policy Agenda for Racial Equality in the Americas,
          which brought together prominent African descendent academics, entrepreneurs,
          government officials and civil society representatives from the hemisphere to
          develop an agenda. A Capitol Hill reception followed and several participants
          traveled to Ottawa to meet with Canadian donors.

       •	 Several sub-regional preparatory events, including a meeting with the president of
          Uruguay and Uruguayan officials responsible for race relations.

       •	 The Meeting of the Coordinating Committee of the Afro-Parliamentarians in Costa
          Rica.

       •	 The meeting of the Afro-Latino and Afro-Caribbean regional women’s network,
          held in Nicaragua, which brought together 40 women from 14 countries.

       •	 A workshop for civil society delegates to the Race Conference to finalize their
          strategy for negotiating with government officials.

The First International Conference of Afro-Colombian Grassroots Leaders, cosponsored by
the IAF, Global Rights and other U.S. organizations, brought together Colombian civil society
leaders to strengthen coordination among Afro-Colombian communities in their negotiations
with international donors and to meet with officials from the IAF, State Department,
Congress, World Bank, IDB and USAID.



                                                                                           8
Making the Invisible Visible: Internationalizing the African Diaspora Imperative—African
Descendants of Latin America Speak included IAF-sponsored panel discussions and visits to
grassroots and human rights organizations in New York. Ten African descendent women
leaders later took part in public affairs programs on university campuses and meetings at the
Council of Foreign Relations, El Diario/La Prensa and Essence Magazine. Activities were
coordinated with the Global Afro-Latino and Caribbean Initiative and the Ford Foundation.

Performance Measure I.3.3: Promote understanding of the dynamics and historic role of
African descendent communities in grassroots development in Latin America and the
Caribbean by supporting studies on those topics, sponsoring events and publications, and
disseminating this learning.

An IAF grant of $44,000 grant to the Latin American Studies Association for two of the five
research teams comprising its Otros Saberes project pairs U.S. scholars with indigenous and
African descendent intellectuals who are studying, respectively, transnational indigenous
networks and the civic participation of African descendants. Results will be published.

A photo essay on IAF’s Web site portraying diversity and development in Afro-Andean
communities was exhibited at the IAF-NCLR event Andean Voices, African Roots, supra.

The IAF displayed photos of its grantees’ beneficiaries and other Afro-Dominicans at the
IAF-NCLR event African Beat, Caribbean Echoes: Blackness in the formation of Dominican
Identity. (See also Performance Measure 1.3.2., supra.)

The IAF and State’s Office of Public Diplomacy co-sponsored the February “Viajes
Personales: Photography and Oral History Workshop for Afro-Nicaraguan Youth,” the
second of three Department-coordinated workshops for young African descendants. The first
was held in Mexico in October and the third in Colombia in June.

Performance Measure I.3.4: Promote training and capacity-building activities through grant
funding and by entering into strategic partnerships with multilateral and other donor agencies.

Ten grants funded in fiscal 2006 include training and capacity-building activities for African
descendants in Colombia, the Dominican Republic, Ecuador, Haiti, Mexico, Panama and
Paraguay.

Performance Measure I.3.5: Include in Grassroots Development coverage of self-help
efforts by African descendent communities and organizations.

Grassroots Development 2006 has a section on the IAF’s outreach to African descendants.
Among the events covered is Ecuadorian folklorist Juan Garcia’s visit to Washington, D.C.
The IAF funded Garcia’s pioneering work in documenting Afro-Ecuadorian oral tradition
during the 1980s. Garcia’s research catalyzed the Afro-Ecuadorian community’s awareness of
its identity and heritage and he later compiled textbooks from his research. The same issue of
Grassroots Development features an interview with rock star Wyclef Jean on his efforts to
mobilize the Haitian Diaspora to work with him toward better conditions in Haiti.



                                                                                             9
Work has begun on Grassroots Development 2007 which will focus on African descendants.

Performance Goal I.4: Continue to promote development efforts among indigenous
communities.

Performance Measure I.4.1: Increase funding for local development projects presented by
grassroots organizations serving indigenous communities.

The IAF funded eight grants totaling $1,688,954 and amended eight ongoing projects in the
amount of $606,615 to benefit indigenous communities in Argentina, Bolivia, Brazil,
Guatemala, Mexico, Panama and Peru.

Performance Measure I.4.2: Promote the inclusion of indigenous grassroots organizations
on the international development agenda.

The IAF sponsored travel grants for representatives of indigenous women’s grassroots groups
and indigenous lawyers from Oaxaca, Mexico, to present their concerns to the Inter-American
Commission on Human Rights and other audiences.

Performance Measure I.4.3: Promote understanding of the dynamics, historic role and civic
potential of indigenous communities in grassroots development in Latin America/Caribbean
by supporting studies on those topics, sponsoring events and publications, and generally
disseminating this learning within the donor community, as well as to policy-makers, service
organizations and communities themselves.

Grassroots Development 2006 includes a major article on Peruvian grassroots visionaries
Aquiles and Morena Lanao whose dedication and perseverance produced an impressive
savings rate among the indigenous women clients of FINCA Peru, funded by the IAF in
1990s.

An IAF press release helped build attendance at a June “Bolivia Day” series of events at
Pangea, an International Finance Corporation-supported crafts shop and café in Washington,
DC. Products from two IAF grantees were featured, and IAF representative Kevin Healy
described successful indigenous businesses and signed copies of his book that details more
than two decades of grassroots development in Bolivia.

Performance Measure I.4.4: Facilitate training and capacity-building activities for
indigenous organizations through grant funding or strategic partnerships with multilateral and
other donor agencies.

IAF grantee Asociación Boliviana para el Desarrollo Rural (PRO RURAL), working with
Irupana Andean Organic Food Company that sells natural food products from high-protein
Andean grains grown on small plots, received financing from the International Finance
Corporation to expand its productive capacity by building a new industrial complex for
making multi-cereal bars that add value to the native grains and increase export opportunities.



                                                                                            10
Nine grants funded in fiscal 2006 include training and capacity-building activities in
indigenous communities in Brazil, Bolivia, Mexico, Panama and Peru.

Performance Measure I.4.5: Continue to document, with articles and other coverage, the
successful transition by indigenous citizens into positions of regional and national leadership
both in countries with a significant indigenous population and in countries where indigenous
peoples are a minority.

Grassroots Development 2006 chronicles how the rise of Rosario Quispe, an indigenous
Argentine, from local to regional to national leadership took a new direction when her
guidance on economic development reached indigenous Bolivian communities.

The efforts of Leticia Toj, a Mayan regional health care leader, to meet the needs of Hurricane
Stan victims in Guatemala, are included in Grassroots Development 2006. Work has begun
toward a Grassroots Development 2007 note on former Bolivian grantees now cabinet
ministers.

                                   Strategic Plan Goal II:
                 Further learning from monitoring and targeted research.

Performance Goal: II.1: Work with networks of Latin American and Caribbean donors
dedicated to responsive grassroots development funding, such as the Inter-American Network
of Corporate Foundations and Actions for Grassroots Development (RedEAmérica), networks
of community foundations and networks of national social funds, toward harmonizing and
sharing grant-making guidelines, information collection and results analysis.

Performance Measure II.1.1: Pursue contacts and collaborative relationships with such
networks and actively disseminate among them the IAF’s view of participatory grassroots
development as the cornerstone of democratic, sustainable development.

In Paraguay, where there are no RedEAmérica members, the IAF met with prospective
members and business leaders who are now preparing a proposal for a Grassroots
Development Fund with IAF participation.

IAF partner and RedEAmérica member Fundación Acción Responsabilidad Social
Empresarial has assisted Gerdau Aza, a Chilean steel company, in applying grassroots
development methodologies in its work with recycling cooperatives in Santiago.

The IAF met with a representative of Genesis Foundation (Genesis), a group of Colombian
and American business leaders committed to supporting education and health initiatives for
underserved children up to 18 years old. As a result, Genesis initiated contact with
RedEAmérica members in Colombia and has applied for membership.




                                                                                            11
The IAF funded a grant to Fundación Sustentabilidad, Educación, Solidaridad which will
study the feasibility of developing community foundations in 10 provinces in Argentina, in
partnership with a network of nongovernmental organizations and businesses.

Performance Measure II.1.2: Provide encouragement and support toward a standardized
results reporting system, which would allow aggregation of RedEAmérica data using a
common electronic data base.

With IAF funding, RedEAmérica conducted four regional workshops for 260 individuals,
representing 49 current and prospective members, who were trained in the application of
RedEAmérica tools, including the set of common indicators for measuring funding impact.

Performance Measure II.1.3: Finalize an updated monitoring and evaluation system that
gathers and analyzes data for reports, congressional presentations and the IAF board of
directors.

Indicators of the intangible impact of IAF-funded projects were incorporated into the
Grassroots Development Framework, IAF’s data collection instrument, for application to new
grants.

Performance Goal II.2: Consolidate the IAF’s information collection and develop greater
analytical capacity, conduct more in-depth inquiries, and internalize and share lessons.

Performance Measure II.2.1: Continue to perfect IAF evaluation methodology as applied to
at least 10 in-depth grant evaluations per year.

Reports now include expected as well as unexpected results of projects evaluated. Evaluations
point to the need for baseline data on conditions existing at the start of the project, which new
grantees are encouraged to provide.

Performance Measure II.2.2: Incorporate the learning from these evaluations into IAF
project selection and monitoring.

Evaluation findings have been discussed with IAF staff for application to proposal review.

Performance Measure II.2.3: Share these lessons with communities, service organizations
and with other donors.

Evaluations have been shared with grantees, ex-grantees and prospective proponents.

Performance Goal II.3: Present to the broad development assistance community cutting-
edge analysis that encourages additional and more targeted resources for grassroots
development.




                                                                                              12
Performance Measure II.3.1: Disseminate the findings of a major study on corporate social
responsibility, undertaken in fiscal 2004 and fiscal 2005 by Lester Salamon of the Johns
Hopkins University.

Because of Dr. Salamon’s previous commitments, a possibility he made clear to IAF when his
contract was awarded, delivery dates for his reports and manuscripts were extended by one
year. The final manuscript is now due in August 2007, and dissemination, including
conferences and symposia involving other donors, will take place in fiscal 2008.

Performance Measure II.3.2: Develop formal agreements with other donors as well as
informal contacts to share such learning.

Fundación Esquel’s study of RedEAmérica members’ efforts to mobilize resources was
followed by a workshop to share experiences. Fundación Empresarios por la Educación will
provide a menu of options on how to incorporate grassroots development methodologies into
the education programs many companies prefer to fund. Fundación Arcor is leading a study
on business-community relations to share with other RedEAmérica members.

As per Performance Measure I.2.2., supra, the IAF has developed an effective relationship
with the U.S. Mission to the OAS regarding SOA follow-up. In connection with its
Opportunity Zones initiative, the IAF has also contacted USAID and the Millennium
Challenge Corporation field offices regarding collaborations in situ.

The IAF maintains frequent contact with specific offices within USAID, the IDB, the World
Bank, IFC and the OAS as well as with private donors, such as Ford Foundation and the
Rockefeller Foundation, particularly in the U.S.-Mexico Border Donors’ Collaborative.

Performance Measure II.3.3: Collaborate with other donors on organizing events such as
conferences and symposia where such knowledge is disseminated.

IAF staff, RedEAmérica members and representatives from Harvard University and other
research institutions participated in a conference at the Universidad de San Andrés in Buenos
Aires on evaluating, researching and disseminating findings on grassroots development.

The IAF is collaborating with the OAS/Department for the Promotion of Good Governance
toward a major conference and follow-up dissemination on the role of foreign assistance in
participatory local government. Possible partners will be the Open Society Institute, the
Canadian Agency for International Development and the Woodrow Wilson Center. A
previous collaboration in 2001 led to a conference and publication titled Building Democracy
from the Grassroots.

The IAF worked at increasing awareness of issues affecting African descendent communities
and strengthening their organizations with members of the Inter-American Consultation on
Race (IAC): the World Bank, the Inter-American Development Bank (IDB), OAS, Ford
Foundation, the Pan American Health Organization and the Inter-American Dialogue. (See
Performance Measure I.3.2, supra.)



                                                                                          13
                                 Strategic Plan Goal III: 

               Make the most of available resources (efficiency, counterpart) 


Performance Goal III.1: Collaborate with a broad range of U.S. and other donors in an array
of arrangements.

Performance Measure III.1.1: Disseminate an IRS ruling that grants made by U.S.
foundations to overseas organizations through the IAF meet expenditure responsibility
requirements, and encourage the use of the IAF as a conduit for grants from other U.S.
donors.

IAF staff is researching Patriot Act requirements for private U.S. donors to overseas
organizations. Discussions have been held with the IAF board of directors on various
dissemination strategies for this new resource mobilization tool.

Performance Goal III.2: Increase the number of grassroots development grants from
RedEAmérica to community organizations.

Between December 2003 and December 2005, RedEAmérica channeled IAF and corporate
funding to grassroots development projects by 369 community membership organizations
reaching more than 66,630 beneficiaries, including children and adolescents, African
descendants and indigenous groups. Projects targeted income-generation, academic
improvement, the promotion of solidarity and respect, cultural activities and institutional
strengthening.

IAF funded one cooperative agreement with a RedEAmérica member in Chile and amended
three others that work with community organizations in Argentina, Chile and Brazil.

Performance Measure III.2.1: Contribute to the admission of new members to
RedEAmérica, to an expanded capability of all members to fund more community
organizations, and to the mobilization of financial resources from members and from other
sources.

Under fiscal 2006 agreements, each RedEAmérica partner must double the IAF’s contribution
and pays all administrative costs of channeling funding to beneficiary community
organizations. The IAF’s 25 bilateral agreements with RedEAmérica members resulted in the
mobilization of $5,957,000 in cash from corporate sources in fiscal 2006; in all, $11,267,000
has been mobilized since RedEAmérica’s founding in 2002.

Performance Goal III.3: Identify and support evolving transnational relationships that
encourage immigrant organizations to aid the development of their home communities, and
promote and connect this effort with other interested parties.

Performance Measure III.3.1: Continue collaboration with immigrant groups in the U.S.
and Canada to support development projects in their communities of origin and identify new




                                                                                          14
financial and technical resources through seminars with these groups, foundations, academics
and municipal authorities in U.S. cities with major immigrant communities.

The IAF funded two grants to organizations in Mexico and El Salvador that work with
migrants in the United States.

Performance Measure III.3.2: Continue disseminating among development and related
organizations the results of IAF’s involvement in transnational linkages and of its assistance
in transforming linkages into co-development initiatives by immigrant communities in the
United States and their countries of origin.

IAF staff and grantees speaking on transnational linkages reached audiences that included
local, state, and federal government officials, migrant organizations, students and academics
at the Binational Forum on Productive Projects in Jalisco, Mexico; and at Promise and
Pitfalls of Migrant Investment in Local Development, a panel in the series on remittances and
development organized by the Fletcher School, Tufts University.

The IAF sponsored 29 travel grants for participants in a conference at the Woodrow Wilson
Center on Mexican migrant binational civic and political participation, which brought
together leaders of hometown associations, established Latino organizations, academics,
policymakers and community development practitioners from the U.S. and Mexico.

In October, for the third consecutive year, the IAF sponsored 14 travel grants for women to
participate in the Salvadoreños en el Mundo conference. Fiscal 2006 participants formed a
Women’s Consultative Committee that has since raised money to assist rural women in El
Salvador with education, health and literacy.

About 70 mayors and municipal council members at the Mayor’s Conference, supra, attended
an IAF-organized panel on Transnational Communities and Local Governments, which
included the director of Salvadoran grantee CARECEN, the mayor of Acajutla, and a
representative of the Los Angeles-based home town that supports Acajutla.

The IAF held several seminars in El Salvador on migration and remittances for grantees and
representatives of other donor agencies, as part of an ongoing series begun three years ago to
disseminate best practices.

More than 80 people at the July NCLR annual conference, supra, attended the IAF-organized
panel on the role of transnational community organizations in promoting development and
citizen participation. Speakers included representatives from the Zacatecan Federation of
Southern California, the Confederation of Mexican Federations of the Midwest, the Women’s
Consultative Committee of Salvadorans in the World and the Central American Coalition of
Los Angeles.

The IAF’s reception during the NCLR conference brought together immigrant leaders, local
authorities, foundation representatives and others to honor and disseminate the contributions
of migrant hometown associations in promoting development in Latin America.



                                                                                           15
Performance Measure III.3.3: Connect to efforts in Canada and other countries that can use
their own transnational linkages as a development resource.

IAF provided materials for the CanAFRO Web site, a project of the Canadian Foundation for
the Americas in partnership with the Inter-Agency Coalition for Race in the Americas to
highlight Afro-descendent development issues.

See also, 1.3.2., supra.

Performance Measure III.3.4: Expand community foundation activities on the U.S.-Mexico
border, including monetary and nonmonetary transfers (such as technical assistance), through
promoting challenge grants and other forms of cross-border philanthropy.

In September, IAF sponsored a conference on grassroots development with seven community
foundations on the border.

The IAF amended a grant to the Mexican community foundation Fundación del Empresario
Sonorense, A.C.

Performance Measure III.3.5: Publish an issue of Grassroots Development focused on
trends in transnational community development.

Grassroots Development 2006 includes 10 articles on transnational development as well as
six reviews of resources available. The articles cover migration and development, hometown
associations, the role of the Diaspora, IAF’s roundtables, its transnational portfolio in Mexico
and El Salvador and projects benefiting indigenous communities split between two countries.

                                Strategic Plan Goal IV: 

      Remain the preeminent organization in the areas of grassroots development and 

              participatory democracy in Latin America and the Caribbean. 


Performance Goal IV.1: Continue improving the Grassroots Development Framework to
reflect work on those “intangible” results of IAF’s program relevant to democratic
engagement and deliberation.

Performance Measure IV.1.1: Develop new and revised indicators of intangible results of
IAF-funded projects and integrate them into the Grassroots Development Framework.

See II.1.3, supra.

Performance Measure IV.1.2: Test and adjust the Grassroots Development Framework
manual, developed in Fiscal 2005, for use by data verifiers and grantees.

A new Grassroots Development Framework manual was compiled.

Performance Measure IV.1.3: Sponsor a review and evaluation of the revised framework.



                                                                                             16
The Grassroots Development Framework indicators were revised and introduced to IAF staff.

Performance Goal IV.2: Maintain IAF’s print and electronic publications in the vanguard of
reporting on and analysis of grassroots development in order to promote a deeper
understanding of self-help in improving living conditions.

Performance Measure IV.2.1: Disseminate quality material on the lessons from the IAF’s
more than three decades of experience in funding innovative self-help initiatives.

Grassroots Development 2006 covers a broad range of IAF experiences: the IAF’s portfolio
of transnational projects; two successful micro credit programs; IAF’s responses to
Hurricanes Mitch and Stan; outreach to African descendants and to persons with disabilities;
and the development of ecotourism and revival of indigenous traditions on Taquile Island,
Peru. This and previous issues carried information on IAF’s earlier publications, resulting in
requests from throughout the hemisphere.

Among its human interest stories showing the impact of development assistance on people’s
lives, the State Department’s Public Diplomacy Web site features Agua para el Pueblo, which
brings access to water to isolated communities; OPCION/Aj Ticonel, an NGO with a business
arm that inserts Guatemalan farmers into the globalized economy; and FUNDAMYF, an
Ecuadorian micro credit program for women with small businesses.

The IAF redesigned its Web site to accommodate “Changing Lives,” using photos and
vignettes to highlight the tangible benefits of IAF’s projects for individuals and communities.

IAF’s Web site now provides links to more than 200 grantee Web sites.

The IAF disseminated news releases to U.S. embassy press offices in every country where our
grants were awarded; many were distributed to local media and reproduced verbatim.

Photos on IAF grassroots funding were exhibited at the Chilean Embassy; the Woodrow
Wilson Center; the University of Texas, Austin; and the Copper Queen Library, Bisbee, Ark.

Ambassador William Eaton headed the visit of a delegation from the U.S. Embassy in
Panama to FUNBARU. Members observed the IAF grantee’s innovative use of Guadua
bamboo in alternative agriculture and received samples of bamboo handicrafts.

               Identification of Key Factors that Could Affect Achievement
                              of General Goals and Objectives

The IAF works in poor, often remote, areas lacking infrastructure, vulnerable to health
problems, weather and natural disasters, fragile agriculturally, and unstable politically.
International phenomena such as markets, wars, and foreign investment also may affect
planned activities. Yet only rarely do IAF-funded projects fail as a result of such factors.




                                                                                            17
             Analysis of Financial Statements and Stewardship Information 

                        Systems, Controls, and Legal Compliance 


                                Net Cost of Core Functions 


The activity reported in the Statement of Net Cost reflects the resources used by the IAF
during the year. Program costs of $24,665,565 reflected a decrease of $2,014,434 in
resources used from the fiscal 2005 amount of $26,679,999.

Personnel compensation and benefits increased from $4,463,293 in fiscal 2005 to $4,781,144
in fiscal 2006 reflecting an increase of $317,851. In fiscal 2006, program-related Contractual
Services used $4,010,675 of IAF resources. The difference of $655,738 from fiscal 2005,
which reported $3,354,937 in resources used, reflects an increase of approximately 19.5
percent. See pie chart below:

                        FY06 NET COST OF IAF CORE FUNCTIONS
                                     Operating
                                     Services               Personnel
                Other Program          3%                     19%
                  Activities
                    16%
                                                                        Rent
                                                                        3%




                                      Grants
                                       59%




                             Fund Balance with U.S. Treasury

Total resources available from the U.S. Treasury and other financing sources for fiscal 2006
and 2005 were $35,137,832 and $36,606,103, respectively. The difference of $1,468,271 is
due to a net decrease in the Social Progress Trust Fund (SPTF) collections in FY-06 and a
cancellation of $48,087 in fiscal 2000/2001 appropriated funds, which expired in FY-06. The
SPTF agreement was amended during fiscal 2002 to provide all remaining funds to the IAF
until they are exhausted, in approximately 14 years. See Note 1 in the Financial Statements
for funding source and Note 8 for the end-of-year net position.




                                                                                           18
                           Limitations on Financial Statements

These financial statements have been prepared to report the financial position and results of
operations of the entity, pursuant to the requirements of 31 U.S.C. 3513. While the
statements have been prepared from the books and records of the entity in accordance with the
formats prescribed by the Office of Management and Budget, the statements are in addition to
the financial reports used to monitor and control budgetary resources which are prepared from
the same books and records.




                                                                                          19
                   Independent Auditor's Report on Financial Statements


Office of the Inspector General
U.S. Agency for International Development
Washington, D.C.

We have audited the accompanying Balance Sheet of the Inter-American Foundation (IAF), a
U.S. Government Corporation, as of September 30, 2006 and 2005, and the related Statements of
Net Cost, Changes in Net Position, Budgetary Resources and Financing for the years then ended.
These financial statements are the responsibility of the management of the IAF. Our
responsibility is to express an opinion on these financial statements based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and the Office of
Management and Budget Bulletin No. 06-03, Audit Requirements for Federal Financial
Statements. Those standards require that we plan and perform the audit to obtain reasonable
assurance about whether the financial statements are free of material misstatement. An audit
includes examining, on a test basis, evidence supporting the amounts and disclosures in the
financial statements. An audit also includes assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audit provides a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects,
the financial position of the IAF as of September 30, 2006 and 2005, and its net costs, changes in
net position, budgetary resources, and the reconciliation of budgetary obligations to net cost for
the years then ended in conformity with generally accepted accounting principles.

Our audits were conducted for the purpose of forming an opinion on the financial statements
referred to in the first paragraph of this report as a whole. The information presented in IAF
Management’s Discussion and Analysis (MD&A) section is not a required part of the financial
statements but is supplementary information required by accounting principles generally
accepted in the United States of America, OMB Circular A-136, Financial Reporting
Requirements. Although we have read the information presented, such information has not been
subjected to the auditing procedures applied in the audits of the financial statements and,
accordingly, we express no opinion on it. However, we have applied certain limited procedures,
which consisted principally of inquires of management regarding the methods of measurement
and presentation of the MD&A information.
In accordance with Government Auditing Standards, we have also issued reports dated October
27, 2006 on our consideration of the IAF's internal control over financial reporting, and on our
tests of its compliance with certain provisions of applicable laws and regulations. These reports
are an integral part of an audit performed in accordance with Government Auditing Standards,
and, in considering the results of the audit, these reports should be read in conjunction with this
report.




October 27, 2006




                                                                                                21
                            INTER-AMERICAN FOUNDATION 

                                     BALANCE SHEETS 

                              As of September 30, 2006 and 2005



                                                                     2006                2005

Assets
Intragovernmental
   Fund Balance with Treasury (Note 2)                           $ 35,137,832      $ 36,606,103
   Other                                                                5,342            35,150

Total intragovernmental                                             35,143,174          36,641,253

Account receivable, net (Note 4)                                           427              20,000
General property, plant and equipment, net (Note 5)                        729               1,455
Advances and prepayments (Note 3)                                    3,206,128           3,801,176

Total assets                                                     $ 38,350,458      $ 40,463,884

Liabilities
Intragovernmental
   Accounts payable (Note 6)                                    $       89,547    $             ­
   Other (Note 6)                                                       29,005            251,729

Total intragovernmental                                               118,552             251,729

Accounts payable (Note 6)                                             395,226              66,759
Other (Note 6)                                                        477,245             721,452

Total liabilities                                                     991,023            1,039,940

Net Position
Unexpended appropriations – Other funds                             17,898,210          16,062,880
Cumulative Results of Operations
   Earmarked funds (Note 15)                                        19,767,528                    ­
   Other funds                                                       (306,303)                   ­
Total cumulative results of operations                              19,461,225          23,361,064

Total net position                                                  37,359,435          39,423,944

Total liabilities and net position                               $ 38,350,458      $ 40,463,884




            The accompanying notes are an integral part of these financial statements
                                                                                             22
                        INTER-AMERICAN FOUNDATION
                           STATEMENTS OF NET COST
                  For the Years Ended September 30, 2006 and 2005

                                                                2006             2005
Program Costs
Foreign Grant Program
   Gross costs (Note 9)                                    $ 24,665,565      $ 26,676,999
   Less: Earned Revenue                                               -                 -
Net Cost of Operations                                     $ 24,665,565      $ 26,676,999




         The accompanying notes are an integral part of these financial statements
                                                                                        23
                                         INTER-AMERICAN FOUNDATION 

                                 STATEMENTS OF CHANGES IN NET POSITION 

                                   For the Years Ended September 30, 2006 and 2005 


                                                                               2006
                                                          Earmarked         All Other
                                                                                                 Total
                                                            Funds            Funds                                     2005
Cumulative Results of Operations
Beginning balance                                        $ 23,581,840   $     (220,776)    $    23,361,064         $ 27,826,016

Budgetary Financing Sources
Appropriations used                                                 -        17,421,583         17,421,583           17,445,399
Non-exchange revenue                                        3,062,440                 -          3,062,440            4,440,576
Donations and forfeitures of cash and cash equivalents              -                 -                  -               75,000

Other Financing Sources (Non-Exchange)
Imputed financing sources (Note 11)                                 -           281,703            281,703              251,072

Total financing sources                                     3,062,440        17,703,286         20,765,726            22,212,047

Net cost of operations                                    (6,876,752)       (17,788,813)       (24,665,565)         (26,676,999)
Net changes                                               (3,814,312)           (85,527)        (3,899,839)          (4,464,952)

Ending balance                                             19,767,528         (306,303)         19,461,225           23,361,064

Unexpended Appropriations
Beginning balance                                                  -         16,062,880         16,062,880           16,425,074

Budgetary Financing Sources
Appropriations received                                             -         19,500,000         19,500,000           18,000,000
Other adjustments                                                   -          (243,087)          (243,087)            (916,795)
Appropriations used                                                 -       (17,421,583)       (17,421,583)         (17,445,399)
Total Unexpended Appropriations                                     -         17,898,210         17,898,210           16,062,880

Net position                                             $ 19,767,528   $    17,591,907    $    37,359,435         $ 39,423,944




                          The accompanying notes are an integral part of these financial statements
                                                                                                              24
                           INTER-AMERICAN FOUNDATION 

                     STATEMENTS OF BUDGETARY RESOURCES 

                     For the Years Ended September 30, 2006 and 2005 



                                                                  2006                   2005
Budgetary Resources:
 Unobligated balance brought forward, October 1               $ 10,731,352       $      13,400,058
 Recoveries of prior year unpaid obligations                     2,583,454               1,397,453
                                                                13,314,806              14,797,511
  Budget Authority
     Appropriation                                               19,500,000             18,000,000
  Spending authority from offsetting collections
    Earned:
        Collected                                                 3,062,440              4,515,576
                                                                 35,877,246             37,313,087
  Permanently not available                                       (243,087)              (916,795)

Total Budgetary Resources                                     $ 35,634,159       $      36,396,292

Status of Budgetary Resources:
  Obligations incurred
    Direct                                                    $ 25,329,994       $      25,664,940
  Unobligated balance
    Apportioned                                                   9,638,846              5,296,565
  Unobligated balances not available                                665,319              5,434,787

Total status of budgetary resources                           $ 35,634,159       $      36,396,292

Change in Obligated Balance:
Obligated balance, net
  Unpaid obligations, brought forward, October 1              $ 25,874,752       $     28,197,898
Obligations incurred, net                                        25,329,994            25,664,940
Less: Gross outlays                                            (23,787,624)          (26,590,633)
Less: Recoveries of prior year unpaid obligations, actual       (2,583,454)           (1,397,453)

Obligated balance, net, end of period                         $ 24,833,668       $ 25,874,752

Net Outlays:
  Gross outlays                                               $ 23,787,624       $      26,590,633
  Less: Offsetting collections                                  (3,062,440)             (4,515,576)

Net Outlays                                                   $ 20,725,184       $      22,075,057




            The accompanying notes are an integral part of these financial statements
                                                                                             25
                                     INTER-AMERICAN FOUNDATION 

                                      STATEMENTS OF FINANCING

                               For the Years Ended September 30, 2006 and 2005 



                                                                                   2006                   2005
Resources Used to Finance Activities
Budgetary Resources Obligated
  Obligations incurred                                                        $    25,329,994    $     25,664,940
  Less: Spending authority from offsetting collections and recoveries             (5,645,894)         (5,913,029)

Net obligations                                                                   19,684,100          19,751,911
Other Resources
 Donations and forfeitures of property                                                     -                 75,000
 Imputed financing from costs absorbed by others                                     281,703                251,072
 Other (Note 9)                                                                    3,062,440              4,440,576

    Net other resources used to finance activities                                 3,344,143              4,766,648

Total resources used to finance activities                                        23,028,243          24,518,559

Resources Used to Finance Items not Part of the Net Cost of Operations
Change in budgetary resources obligated for goods, services and benefits
  ordered but not yet provided                                                     1,584,093              2,153,541
Resources that fund expenses recognized in prior periods                              19,573                      ­

 Total Resources Used to Finance Items Not Part of the Net Cost of
   Operations                                                                      1,603,666              2,153,541

Total resources used to finance the net cost of operations                        24,631,909          26,672,100

Components of the Net Cost of Operations that will not Require or
Generate Resources in the Current Period:
Components Requiring or Generating Resources in Future Periods:
  Increase in annual leave liability                                                  32,931                15,638
Components not Requiring or Generating Resources:
  Depreciation and amortization                                                           725                 9,261
  Other                                                                                     -              (20,000)

Total components of Net Cost of Operations that will not require
  or generate resources                                                                   725              (10,739)

Total components of Net Cost of Operations that will not require or
generate resources in the current period                                              33,656                 4,899

Net Cost of Operations                                                        $   24,665,565         $ 26,676,999




                     The accompanying notes are an integral part of these financial statements
                                                                                                     26
                            INTER-AMERICAN FOUNDATION 

                           NOTES TO FINANCIAL STATEMENTS 

                               September 30, 2006 and 2005 


NOTE 1−SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

A. Basis of Presentation

The financial statements have been prepared to report the financial position, net cost of
operations, changes in net position, status and availability of budgetary resources, and the
reconciliation between proprietary and budgetary accounts of the Inter-American Foundation
(IAF). The statements are a requirement of the Chief Financial Officers Act of 1990, the
Government Management Reform Act of 1994, the Accountability of Tax Dollars Act of
2002 and the OMB Bulletin Number 06-03, Audit Requirements for Federal Financial
Statements. They have been prepared from, and are fully supported by, the books and records
of IAF in accordance with the hierarchy of accounting principles generally accepted in the
United States of America, standards approved by the principles of the Federal Accounting
Standards Advisory Board (FASAB), OMB Circular A-136, Financial Reporting
Requirements and IAF accounting policies which are summarized in this note. These
statements, with the exception of the Statement of Budgetary Resources, are different from
financial management reports, which are also prepared pursuant to OMB directives that are
used to monitor and control IAF’s use of budgetary resources.


The statements consist of the Balance Sheet, Statement of Net Cost, Statement of Changes in
Net Position, Statement of Budgetary Resources, and Statement of Financing. In accordance
with OMB Circular A-136, the financial statements and associated notes are presented on a
comparative basis. Unless specified otherwise, all amounts are presented in U.S. dollars.

B. Reporting Entity

IAF, a U.S. government corporation, was established pursuant to part IV of the Foreign
Assistance Act of 1969 (22 U.S.C. 290f (a)). IAF provides grants to support the initiatives of
non-governmental and community-based organizations in Latin America and the Caribbean to
implement their economic development and poverty reduction projects.

The management of IAF is vested in a nine-person Board of Directors appointed by the
President of the United States. Six Board members are drawn from the private sector and
three from officers or employees of agencies of the U.S. Government concerned with Inter-
American activities. The Board appoints IAF’s president who acts as the chief executive
officer.

C. Budgets and Budgetary Accounting

Congress enacts appropriations to permit IAF to incur obligations for authorized purposes. In
fiscal years 2006 and 2005, IAF was accountable for the Social Progress Trust Fund (SPTF),
Gift Fund, and General Fund appropriations. IAF recognizes budgetary resources as assets
when cash (funds held by the U.S. Treasury) is made available through the Department of


                                                                                           27
                         INTER-AMERICAN FOUNDATION 

                        NOTES TO FINANCIAL STATEMENTS 

                            September 30, 2006 and 2005 

Treasury General Fund warrants and transfers from the Inter-American Development Bank
(IDB).

D. Basis of Accounting

Transactions are recorded on an accrual accounting basis and a budgetary basis. Under the
accrual method, revenues are recognized when earned and expenses are recognized when
liabilities are incurred, without regard to receipt or disbursement of cash. Budgetary
accounting facilitates compliance with legal constraints and controls over the use of federal
funds.

To assist OMB in recommending and publishing comprehensive accounting standards and
principles for agencies of the Federal Government, the Secretary of the Treasury, the
Comptroller of the United States, the Director of OMB, and the Joint Financial Management
Improvement Program established the FASAB in 1990. The American Institute of Certified
Public Accountants Council designated FASAB as the accounting standards authority for
Federal government entities.

E. Revenue and Other Financing Sources

IAF’s grant program is funded by appropriation from the budget of the United States,
agreement with the Inter-American Development Bank covering the SPTF, and donations
from the private sector. No-year appropriations remain available until expended, while multi­
year appropriations are available for the period prescribed by the applicable statute.
Appropriations are used, within statutory limits, for programmatic, operating and capital
expenditures for essential personal property. Appropriations are recognized as revenues at the
time the related program or administrative expense are incurred. Appropriations expended for
capitalized property and equipment are recognized as expense when an asset is consumed in
operations.

IAF has an agreement with the IDB to receive funds from the SPTF to finance part of IAF’s
grant program. The IDB is an international financial organization established to promote the
economic and social development of member countries. The United States’ participation in
IDB is authorized and governed by the Inter-American Development Bank Act (22 U.S.C.
283). Within IDB, the United States established the SPTF in 1961 and provided
appropriations to SPTF through 1964. IDB was designated as the administrator for the SPTF
and committed the original SPTF appropriations to loans. Repayments of these loans are
recycled by the IDB in accordance with the original agreement and subsequent provision for
additional loans, technical cooperation programs, and financing of the Inter-American
Foundation program.

Pursuant to a 1973 amendment to the Foreign Assistance Act of 1961, IDB provides funds to
finance social development projects. These funds are made available in U.S. dollars upon
request by IAF, subject to denomination availability and exchange controls. In 2002, the
SPTF agreement was amended to make available all remaining funds until exhausted.


                                                                                           28
                          INTER-AMERICAN FOUNDATION 

                         NOTES TO FINANCIAL STATEMENTS 

                             September 30, 2006 and 2005 




IAF recognizes as an imputed financing source the amount of accrued pension and post­
retirement benefit expenses for current employees paid on its behalf by the Office of
Personnel Management (OPM).

F. Taxes

IAF, as a Federal entity, is not subject to federal, state or local income taxes, and, accordingly,
no provision for income taxes has been recorded in the accompanying financial statements.

G. Fund Balances with Treasury

The U.S. Treasury processes cash receipts and disbursements. Funds with the Department of
the Treasury primarily represent appropriated funds and SPTF collections that are available to
pay current liabilities and finance authorized purchase commitments and SPTF grants. IAF
does not maintain cash in commercial bank accounts or foreign currency balances. Foreign
currency payments are made either by Treasury or the Department of the State and are
reported by IAF in U.S. dollar equivalents. See Note 2 for additional information.

H. Accounts Receivable

Accounts receivable consists of amounts owed to IAF by other Federal agencies and the
public. Amounts due from Federal agencies are considered fully collectible. Accounts
receivable from the public include reimbursements from employees. An allowance for
uncollectible accounts receivable from the public is established when either (1) based upon a
review of outstanding accounts and the failure of all collection efforts, management
determines that collection is unlikely to occur considering the debtor’s ability to pay, or (2) an
account for which no allowance has been established is submitted to the Department of the
Treasury for collection, which takes place when it becomes 180 days delinquent. See Note 4
for additional information.

I. Advances and Prepayments

Advance payments are generally prohibited by law. There are some exceptions, such as
reimbursable agreements, subscriptions and payments to contractors and employees.
Payments made in advance of the receipt of goods and services are recorded as advances or
prepaid charges at the time of prepayment and recognized as expenses when the related goods
and services are received.

J. General Property, Plant, and Equipment, Net

IAF’s property, plant and equipment is recorded at original acquisition cost and is depreciated
using the straight-line method over the estimated useful life of the asset. Major alterations and
renovations are capitalized, while maintenance and repair costs are charged to expense as



                                                                                               29
                          INTER-AMERICAN FOUNDATION 

                         NOTES TO FINANCIAL STATEMENTS 

                             September 30, 2006 and 2005 

incurred. IAF’s capitalization threshold is $50,000 for individual purchases and $500,000 for
bulk purchases. The useful life classifications for capitalized assets are as follows:

                            Description                Useful Life (in years)
                 ADP equipment                                    3
                 Office furniture and equipment                   10

K. Liabilities

Liabilities represent the amount of monies or other resources likely to be paid by IAF as a
result of transactions or events that have already occurred. No liability can be paid, however,
absent an appropriation or SPTF funding. Liabilities for which an appropriation has not been
enacted or SPTF funds received are, therefore, classified as not covered by budgetary
resources. There is no certainty that the appropriation will be enacted. Additionally, the
Government, acting in its sovereign capacity, can abrogate liabilities. Liabilities not covered
by budgetary resources on the Balance Sheets are equivalent to amounts reported as
Components requiring or generating resources on the Statement of Financing.

L. Accounts Payable

Accounts payable consists of amounts owed to other federal agencies and trade accounts
payable.

M. Annual, Sick, and Other Leave

Annual leave is accrued as it is earned, and the accrual is reduced as leave is taken. The
balance in the accrued leave account is adjusted to reflect current pay rates. Liabilities
associated with other types of vested leave, including compensatory, restored leave, and sick
leave in certain circumstances, are accrued at year-end, based on latest pay rates and unused
hours of leave. Funding will be obtained from future financing sources to the extent that
current or prior year appropriations are not available to fund annual and other types of vested
leave earned but not taken. Nonvested leave is expensed when used.

N. Retirement Plans

IAF’s employees participate in the Civil Service Retirement System (CSRS) or the Federal
Employees’ Retirement System (FERS). FERS was established by the enactment of Public
Law 99-335. Pursuant to this law, FERS and Social Security automatically cover most
employees hired after December 31, 1983. Employees hired before January 1, 1984 elected to
join either FERS and Social Security or remain in CSRS.

IAF recognizes the imputed cost of pension and other retirement benefits during the
employees’ active years of service. OPM actuaries determine pension cost factors by
calculating the value of pension benefits expected to be paid in the future and communicates


                                                                                            30
                          INTER-AMERICAN FOUNDATION 

                         NOTES TO FINANCIAL STATEMENTS 

                             September 30, 2006 and 2005 

these factors to IAF for current period expense reporting. OPM also provides information
regarding the full cost of health and life insurance benefits. IAF recognized the offsetting
revenue as imputed financing sources to the extent these expenses will be paid by OPM.

All employees are eligible to contribute to the Thrift Savings Plan (TSP). For those employees
participating in the FERS, a TSP account is automatically established and IAF makes a
mandatory 1 percent contribution to this account. In addition, IAF makes matching
contributions, ranging from 1 to 4 percent, for FERS eligible employees who contribute to
their TSP accounts. In accordance with Federal employee benefit policies, matching
contributions are not made to the TSP accounts established by CSRS employees.

FERS employees and certain CSRS reinstatement employees are eligible to participate in the
Social Security program after retirement. In these instances, IAF remits the employer’s share
of the required contribution. IAF's contribution to employee pension plan were $440,474 for
fiscal year 2006 and $394,423 for fiscal year 2005. In addition, IAF costs for health and life
insurance were $391,618 for fiscal year 2006 and $370,326 for fiscal year 2005.

IAF does not report on its financial statements information pertaining to the retirement plans
covering its employees. Reporting amounts such as plan assets, accumulated plan benefits,
and related unfunded liabilities, if any, is the responsibility of the OPM.

O. Grant Disbursements and Administrative Expenses

Grant disbursements include payments in advance of performance under contractual
obligations. Evidence of performance is determined by review of periodic expenditure
reports. All IAF expenditures for grants over $35,000 are independently verified using IAF’s
audit guidelines. IAF’s administrative expenses are funded solely by appropriated funds.

P. Use of Estimates

Management has made certain estimates and assumptions when reporting assets, liabilities,
revenue, and expenses, and in the note disclosures. Actual results could differ from these
estimates.

Q. Imputed Cost/Financing Sources

Federal Government entities often receive goods and services from other Federal Government
entities without reimbursing the providing entity for all the related costs. In addition, Federal
Government entities also incur costs that are paid in total or in part by other entities. An
imputed financing source is recognized by the receiving entity for costs that are paid by other
entities. IAF recognized imputed costs and financing sources in fiscal years 2006 and 2005 to
the extent directed by OMB.




                                                                                              31
                          INTER-AMERICAN FOUNDATION 

                         NOTES TO FINANCIAL STATEMENTS 

                             September 30, 2006 and 2005 


R. Non-Entity Assets and Liabilities

IAF did not hold any Non-Entity assets or liabilities as of September 30, 2006 and 2005.

S. Contingencies

Liabilities are deemed contingent when the existence or amount of the liability cannot be
determined with certainty pending the outcome of future events. IAF recognizes liabilities, in
the accompanying balance sheet and statement of net cost, when it is both probable and can be
reasonably estimated. IAF discloses contingent liabilities in the notes to the financial
statements when the conditions for liability recognition are not met or when a loss from the
outcome of future events is more than remote. In some cases, once losses are certain,
payments may be made from the Judgment Fund maintained by the U.S. Treasury rather than
from the amounts appropriated to IAF for agency operations. Payments from the Judgment
Fund are recorded as an “Other Financing Source” when made. There are no contingencies
that require disclosure.

T. Expired Accounts and Cancelled Authority

Unless otherwise specified by law, annual authority expires for incurring new obligations at
the beginning of the subsequent fiscal year. The account in which the annual authority is
placed is called the expired account. For five fiscal years, the expired account is available for
expenditure to liquidate valid obligations incurred during the unexpired period. Adjustments
are allowed to increase or decrease valid obligations incurred during the unexpired period but
not previously reported. At the end of the fifth expired year, the expired account is cancelled.

NOTE 2−FUND BALANCE WITH TREASURY

Entity fund balances include amounts that are available to pay liabilities and to finance
authorized purchase and grant commitments. Restricted unobligated fund balances represent
the amount of appropriations for which the period of availability for obligation has expired.
These balances are available for upward adjustments of obligations incurred only during the
period for which the appropriation was available for obligation or for paying claims
attributable to the appropriations.




                                                                                              32
                         INTER-AMERICAN FOUNDATION 

                        NOTES TO FINANCIAL STATEMENTS 

                            September 30, 2006 and 2005
                                                      2006               2005
          Fund Balances

          Appropriated fund                      $    16,509,112 $       15,043,704
          Gift fund                                       75,000             75,000
          Social progress trust fund (SPTF)           18,553,720         21,487,399

          Total entity funds                     $    35,137,832 $       36,606,103

          Status of Fund Balance with Treasury

          Unobligated balance includes SPTF
            Available                            $     9,638,846 $        5,296,565
            Unavailable                                  665,318          5,434,787
          Obligated balance not yet disbursed         24,833,668         25,874,751

                                                 $    35,137,832 $       36,606,103

NOTE 3−ADVANCES AND PREPAYMENTS

Grant payments are recorded as an advance and amortized over the estimated useful period
covered by the agreement. First time grant payments are amortized over an eight-month
period. Subsequent payments are amortized over a six-month period. Prepayments are also
made to select government agencies and vendors in advance of receiving the goods or service.
Advances and prepayments are detailed below:


                                                       2006               2005

       Prepayments other than grant advances      $        78,231    $         34,170
       Grant advances                                   3,127,897           3,767,006

       Total                                      $     3,206,128    $      3,801,176

NOTE 4−ACCOUNTS RECEIVABLE

Accounts receivable balances as of September 30, 2006 and 2005 were $427 and $20,000
respectively. Accounts receivable from the public are shown net of allowances for
uncollectible amounts as of September 30, 2006 and 2005, respectively.




                                                                                         33
                           INTER-AMERICAN FOUNDATION 

                          NOTES TO FINANCIAL STATEMENTS 

                              September 30, 2006 and 2005 

NOTE 5−PROPERTY, PLANT AND EQUIPMENT

The balance of Property, Plant, and Equipment is as follows:

                                                      September 30, 2006
                                        Acquisition      Accumulated           Net
                                           Cost          Depreciation       Book Value

       ADP equipment                   $       27,000 $          27,000 $             -
       Office furniture                        41,072            40,343             729

                                       $       68,072 $          67,343 $           729



                                                      September 30, 2005
                                        Acquisition      Accumulated        Net
                                           Cost          Depreciation    Book Value

       ADP equipment                    $      29,424        $   29,424 $              -
       Office furniture                        41,072            39,617            1,455

                                           $   70,496        $   69,041     $      1,455

NOTE 6−LIABILITIES

The accrued liabilities for IAF are comprised of program expense accruals, payroll accruals,
and unfunded annual leave earned by employees. Program expense accruals represent
expenses that were incurred prior to year-end but were not paid. Similarly, payroll accruals
represent payroll expenses that were incurred prior to year-end but were not paid.

                                   Schedule of Liabilities

                                                                     2006          2005
 Liabilities covered by budgetary resources
  Intragovernmental
    Accounts payable                                             $      89,547 $          ­
    Payroll taxes payable                                               29,005       26,151
    Program expenses                                                         -      225,578

   Total intragovernmental                                           118,552        251,729

   Program expenses
    Rent                                                                21,662        5,220


                                                                                           34
                         INTER-AMERICAN FOUNDATION 

                        NOTES TO FINANCIAL STATEMENTS 

                            September 30, 2006 and 2005
                                                                      2006           2005
    Staff travel, training, printing, equipment
      maintenance, supplies, non-capt. equipment                       14,190          16,649
    Postal, freight                                                     3,322           4,798
    Maintenance of equipment                                           46,958           8,448
    Communications and mail services                                    4,168           6,489
    Supplies & non-capitalized equipment                               47,964          12,745
    Grant monitoring services (DVs)                                         -           5,327
    Translations                                                            -           3,027
    Local advisory service contracts for grantees                      39,747         115,413
    Research on corporate responsibility                                    -          46,884
    Grant audits                                                      109,752          39,320
    Misc. services, program                                            15,571           6,619
    Misc. services, program support                                    91,892           7,309
    Accounts payable                                                        -          66,759

   Total program expenses                                             395,226         345,007

    Payroll accrual                                                   164,932         164,332
    Payroll taxes payable                                               4,853           4,342

   Total liabilities covered by budgetary resources                   683,563         765,410

   Liabilities not covered by budgetary resources
    Unfunded leave                                                    307,460         274,530

   TOTAL LIABILITIES                                             $    991,023 $ 1,039,940

   Reconciliation of other non governmental liabilities:
    Program expense accruals                                     $    395,226 $       278,248
    Payroll accruals                                                  164,932         164,332
    Payroll taxes payable                                               4,853           4,342
    Unfunded leave                                                    307,460         274,530

  Total                                                          $    872,471 $       721,452

NOTE 7−COMMITMENTS AND CONTINGENCIES

In the course of its grant-making activities, IAF has unliquidated grant obligations which, in
the absence of violations or cancellations of the grant agreements, will require disbursements.
Unliquidated grant obligations at September 30, 2006 and 2005 total approximately
$21,768,267 and $22,714,000, respectively.

As of September 30, 2006 and 2005, there were no obligations due to canceled appropriations
for which there is a contractual commitment for payment.


                                                                                            35
                           INTER-AMERICAN FOUNDATION 

                          NOTES TO FINANCIAL STATEMENTS 

                              September 30, 2006 and 2005 


NOTE 8−NET POSITION

The Inter-American Foundation’s net position is composed of unexpended appropriations and
the cumulative results of operations. Net position as of September 30 consisted of the
following:

                                                               2006             2005
  Unexpended appropriations
   Unobligated excludes SPTF:
     Available                                            $    1,881,797   $      552,576
     Unavailable                                                 665,319        1,784,295
   Undelivered orders                                         15,351,094       13,726,009

  Total unexpended appropriations                         $ 17,898,210     $ 16,062,880

  Cumulative results of operations                            19,461,225       23,361,064

  Net Position                                            $ 37,359,435     $ 39,423,944

  Reconciliation to statement of budgetary resources

                                                               2006             2005
  Unobligated available
      SPTF                                                $    7,757,049   $    4,743,990
      Appropriations                                           1,881,797          552,575

 Total unobligated available                              $    9,638,846   $    5,296,565

  Unobligated unavailable
      SPTF                                                $          -     $    3,650,491
      Appropriations                                            665,319         1,784,296

  Total unobligated unavailable                           $     665,319    $    5,434,787

  Undelivered orders (Less Advances)
      SPTF                                                $ 10,796,672 $ 13,089,830
      Donations                                                 75,000       75,000
      Appropriations                                        13,278,433   11,944,512

  Total undelivered orders                                $ 24,150,105     $ 25,109,342




                                                                                       36
                          INTER-AMERICAN FOUNDATION 

                         NOTES TO FINANCIAL STATEMENTS 

                             September 30, 2006 and 2005 

NOTE 9−PROGRAM COSTS

Costs by major budgetary object classification as of September 30 are as follows:


            Budgetary Object Classifications                        2006              2005

   Personnel compensation                                      $    3,598,757     $ 3,343,431
   Personnel benefits other than pension, health, and
   life insurance                                                     350,295          355,113
   Pension – CSRS                                                     126,113           95,123
   Pension – FERS                                                     314,361          299,300
   Health insurance                                                   385,515          364,489
   Life insurance                                                       6,103            5,837
   Travel and transportation of persons                               463,358          461,069
   Transportation of things                                             5,877           26,258
   Rents, communication, utilities and misc. charges                  652,313          832,799
   Printing and reproduction                                          122,599          374,617
   Other services                                                   4,010,675        3,354,937
   Supplies and materials                                              53,702           48,653
   Equipment                                                          105,012           94,654
   Grants, subsidies, and contributions                            14,470,885       17,020,719

   Total                                                       $ 24,665,565       $ 26,676,999

NOTE 10−LIABILITIES NOT COVERED BY BUDGETARY RESOURCES

The liabilities on IAF’s Balance Sheet as of September 30, 2006 and 2005, include liabilities
not covered by budgetary resources, which are liabilities for which congressional action is
needed before budgetary resources can be provided. Although future appropriations to fund
these liabilities are likely and anticipated, it is not certain that appropriations will be enacted
to fund these liabilities. Liabilities not covered by budgetary resources consist entirely of
unfunded leave. Unfunded leave balances are $307,460 and $274,530 as of September 30,
2006 and 2005, respectively.

NOTE 11−IMPUTED FINANCING SOURCES

IAF recognizes as imputed financing the amount of accrued pension and post-retirement
benefit expenses for current employees. The assets and liabilities associated with such
benefits are the responsibility of the administering agency, the OPM. For the fiscal years
ended September 30, 2006 and 2005, respectively, imputed financing was $281,703 and
$251,072.




                                                                                               37
                         INTER-AMERICAN FOUNDATION 

                        NOTES TO FINANCIAL STATEMENTS 

                            September 30, 2006 and 2005 


NOTE 12−FINANCING SOURCES (SPTF)

The Statement of Financing reconciles the financial Net Cost of Operations with the
Statement of Budgetary Resources. IAF reports SPTF funds obtained from the IDB as
offsetting collections earned. IAF had no exchange revenue in fiscal year 2006 or 2005. For
fiscal year 2006 and 2005, IAF received $3,062,440 and $4,440,576 respectively, from the
IDB, which was reported on its SF-133 as funds received from SPTF collections.

                                                            2006             2005
       SPTF cumulative results

       SPTF beginning balance                           $ 23,502,291 $ 27,848,749
       SPTF funds received                                 3,062,440     4,440,576
       Less: SPTF asset transfer                                   -      (10,715)
       Less: SPTF funds expended                          (6,872,203)  (8,776,319)

       SPTF fund carry forward                            19,692,528         23,502,291

       Donations cumulative results

       Donations beginning balance                             79,548            98,860
       Donations received                                           -            75,000
       Less: Donations expended                                (4,548)         (94,311)

       Donations carry forward                                 75,000            79,549

        Less: Unfunded leave and accumulated
          deprecation from appropriated funds               (306,303)         (220,776)
       Total cumulative results of operations
        for SPTF, Gift and Appropriated funds           $ 19,461,225     $   23,361,064


NOTE 13−EXPLANATION OF DIFFERENCES BETWEEN THE STATEMENT OF
BUDGETARY RESOURCES AND THE BUDGET OF THE UNITED STATES
GOVERNMENT

The 2008 Budget of the United States Government, with the Actual Column completed for
fiscal year 2006, has not yet been published as of the date of these financial statements. The
Budget is currently expected to be published and delivered to Congress in early February
2007. The 2007 Budget of the United States Government, with the Actual Column completed
for fiscal year 2005, has been reconciled.




                                                                                           38
                         INTER-AMERICAN FOUNDATION 

                        NOTES TO FINANCIAL STATEMENTS 

                            September 30, 2006 and 2005 

NOTE 14−OPERATING LEASE

IAF occupies office space under a lease agreement, which is accounted for as an operating
lease. IAF entered into a lease agreement that will expire on April 30, 2012. Lease payments
are increased annually based on IAF’s proportionate share of the building’s operating
expenses and real estate taxes. The new agreement allows IAF an abatement credit in lieu of
a build-out allowance that will be deducted from the monthly rent for the first 26 months of
the lease. Total net rental expense for fiscal years 2006 and 2005 were $595,208 and
$576,030 respectively. Below is a schedule of future payments for the term of the lease:

                                 Fiscal Year             Amount

                          2007                       $     629,566
                          2008                             644,305
                          2009                             659,413
                          2010                             674,898
                          2011                             690,770
                          2012                             408,195

                          Total future payments      $    3,707,147

NOTE 15−EARMARKED FUNDS

Earmarked funds are presented for fiscal year 2006 in compliance with OMB Circular A-136
which took effect for reporting in fiscal year 2006. Such identification and presentation was
not made in fiscal year 2005 and earlier as earmarking of funds was not required in those
years.

Schedule of Earmarked Funds as of September 30, 2006

                              Balance Sheet

Assets
Fund balance with Treasury                                                   $ 18,628,720
Other Assets                                                                    1,138,808

Total Assets                                                                 $ 19,767,528

Liabilities                                                                  $             -

Net Position
Cumulative results of operations - Earmarked funds                               19,767,528

Total Liabilities and Net Position                                           $ 19,767,528



                                                                                          39
                          INTER-AMERICAN FOUNDATION
                         NOTES TO FINANCIAL STATEMENTS
                             September 30, 2006 and 2005


                             Statement of Net Cost

Program Costs
Gross Costs                                                $     6,876,752
Less: Total Non Exchange Revenues                              (3,062,440)

Net Cost of Operations                                     $    3,814,312

                  Statement of Changes in Net Position

Net Position Beginning of Period                           $ 23,581,840
Net Cost of Operations                                       (3,814,312)

Net Position End of Period                                 $ 19,767,528




                                                                        40
        Independent Auditor’s Report on Internal Control over Financial Reporting


Office of the Inspector General
U.S. Agency for International Development
Washington, D.C.


We have audited the financial statements of the Inter-American Foundation (IAF), a U.S.
Government Corporation, as of, and for the year ended September 30, 2006, and have issued our
report thereon dated October 27, 2006. We conducted our audit in accordance with auditing
standards generally accepted in the United States of America; the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General
of the United States; and, Office of Management and Budget (OMB) Bulletin No. 06-03, Audit
Requirements for Federal Financial Statements.

In planning and performing our audit, we considered the IAF’s internal control over financial
reporting by obtaining an understanding of the IAF’s internal control, determined whether
internal controls had been placed in operation, assessed control risk, and performed tests of
controls in order to determine our auditing procedures for the purpose of expressing our opinion
on the financial statements. We limited our internal control testing to those controls necessary to
achieve the objectives described in OMB Bulletin No. 06-03. We did not test all internal controls
relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity
Act of 1982, such as those controls relevant to ensuring efficient operations. The objective of our
audits was not to provide assurance on internal control. Consequently, we do not provide an
opinion on internal control.

Our consideration of the internal control over financial reporting would not necessarily disclose
all matters in the internal control over financial reporting that might be reportable conditions.
Under standards issued by the American Institute of Certified Public Accountants, reportable
conditions are matters coming to our attention relating to significant deficiencies in the design or
operation of the internal control that, in our judgment, could adversely affect the IAF’s ability to
record, process, summarize, and report financial data consistent with the assertions by
management in the financial statements. Material weaknesses are reportable conditions in which
the design or operation of one or more of the internal control components does not reduce to a
relatively low level the risk that misstatements in amounts that would be material in relation to
the financial statements being audited may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions.
Because of inherent limitations in internal controls, misstatements, losses, or non compliance
may nevertheless occur and not be detected. However, we noted no matters involving the
internal control and its operation that we consider to be material weaknesses as defined above.


In addition, with respect to internal controls related to performance measures reported in the
Management Discussion and Analysis (MD&A), we obtained an understanding of the design of
significant internal controls relating to the existence and completeness assertions, as required by
OMB Bulletin No. 06-03. Our procedures were not designed to provide assurance on internal
control over reported performance measures, and accordingly, we do not provide an opinion on
such controls.


This report is intended solely for the information and the use of management of the Inter-
American Foundation (IAF), the Office of the Inspector General (OIG) of the U.S. Agency for
International Development, the Office of Management and Budget (OMB), and Congress, and is
not intended to be and should not be used by anyone other than these specified parties.




October 27, 2006




                                                                                                42
           Independent Auditor’s Report on Compliance with Laws and Regulations


Office of the Inspector General
U.S. Agency for International Development
Washington, D.C.


We have audited the financial statements of the Inter-American Foundation (IAF), a U.S.
Government Corporation, as of, and for the years ended September 30, 2006, and have issued
our report thereon dated October 27, 2006. We conducted our audit in accordance with auditing
standards generally accepted in the United States of America; the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General
of the United States; and, Office of Management and Budget (OMB) Bulletin No. 06-03, Audit
Requirements for Federal Financial Statements.

The management of the IAF is responsible for complying with laws and regulations applicable to
the agency. As part of obtaining reasonable assurance about whether the financial statements are
free of material misstatement, we performed tests of the IAF’s compliance with certain
provisions of laws and regulations, non compliance with which could have a direct and material
effect on the determination of financial statement amounts, and certain other laws and
regulations specified in OMB Bulletin No. 06-03, including the requirements referred to in the
Federal Financial Management Improvement Act (FFMIA) of 1996. We limited our tests of
compliance to these provisions and we did not test compliance with all laws and regulations
applicable to the IAF.

The results of our tests of compliance with laws and regulations described in the preceding
paragraph exclusive of FFMIA disclosed no instances of non compliance that are required to be
reported under Government Auditing Standards and OMB Bulletin No. 06-03.

Under FFMIA, we are required to report on whether the IAF’s financial management systems
substantially comply with the Federal financial management systems requirements (FFMSR),
applicable Federal accounting standards, and the United States Standard General Ledger at the
transaction level. The Administrative Resource Center, Bureau of Public Debt, performs the
accounting and reporting functions for the IAF. We are not auditors of the Bureau of Public
Debt and did not perform tests of compliance with the FFMSR using the implementation
guidance included in Appendix D of the OMB Bulletin No. 06-03.

Those tests were performed by other auditors whose report has been furnished to us. Our report,
insofar as it relates to FFMSR compliance, is based on the report of the other auditors.
The report of the other auditors on the substantial compliance of the IAF with the requirements
of FFMSR disclosed no instances of substantial non compliance with the FFMSR. Our audit
tests disclosed no instances in which IAF did not substantially comply with Federal accounting
standards and the U.S. Standard General Ledger requirements.

Providing an opinion on compliance with certain provisions of laws and regulations was not an
objective of our audit and, accordingly, we do not express such an opinion.

This report is intended solely for the information and use of management of the Inter-American
Foundation (IAF), the Office of the Inspector General (OIG) of the U.S. Agency for International
Development, the Office of Management and Budget (OMB), and Congress, and is not intended
to be and should not be used by anyone other than these specified parties.




October 27, 2006




                                                                                             44
